Supreme Court, U.S.
FILED

WAIVER

NOV 0 9 2020

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-574
Joseph B. Scarnati, III, et al.
(Petitioners)

v.

Pennsylvania Democratic Party, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
NI

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Clarion County Board of Elections
Tioga County Board of Elections

0 I am a member of the Bar of the Supreme Court of the United States.
'

I am not pres
the Bar of this Court. Should a response be requested,
the res
will be filed a Bar member.

kg

nature

Date: November 9, 2020
(Type or print) Name Stephanie L. Fera, Esquire
D Mr.
El Ms.
Firm

0 Mrs.

0 Miss

Cafardi Ferguson Wyrick Weis + Gabriel 11c

Address

2605

Nicholson Road, Suite 2201

City & State Sewickley, PA

Zip 15143

Phone 412.515.8900
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Holzman Vogel Josefiak Torchinsky PLLC
Crystal H. Clark
Matthew Friedlander Holland & Knight LLP
Chalmers & Adams LLC

Obtain status of case on the docket. By phone at 202-479-3034 or via the intern t
http://www.supremecourtus.gov. Have the Supreme Court docket number avail ble.
C79C7. C.'

•e7-41

Cf
WW

CAFARDI FERGUSON WYRICK WEIS + GABRIEL
Scott Cooper, Legal Assistant
scooper@cfwwg.com
November 9, 2020

VIA US FIRST CLASS MAIL
Supreme Court of the United States
Attn: Clerk of Court
1 First Street, NE
Washington, DC 20543
RE: Joseph B. Scarnati, III et al. v. PA Democratic Party, et al.
Case No. 20-574
Dear Sir/Madam,
Enclosed please find a Waiver to be filed on behalf of the Clarion County Board of Elections and
the Tioga County Board of Elections in the above-mentioned case.
Thank you very much for your help in this matter. Please do not hesitate to contact me with any
questions or issues.
Cafard. Ferguson Wyrick Weis + Gabriel

Scott Cooper, Legal Assistant
•

Enclosure

- sr ;'r"?-

i

' 2805-igiCholsTn Road 1

I -Sewickley, PA 15143 I T 412:515:8900 I F 412.515.8901
[ cfwwg.com

I

